                                      February 8, 2001


MEMORANDUM FOR THE SECRETARY


FROM:          Gregory H. Friedman (Signed)
               Inspector General


SUBJECT:      INFORMATION: Federal Managers' Financial Integrity Act Audit Report
              Audit Report No.: CR-L-01-06


We reviewed the Department of Energy's (Department) progress in implementing the Federal
Managers' Financial Integrity Act (FMFIA) of 1982. The review was made to assist you in
determining whether the evaluations of the systems of management, accounting, and
administrative controls were carried out in a reasonable and prudent manner by the
Department for Fiscal Year 2000.

The Department's evaluation of its control systems was examined for compliance with
requirements of the FMFIA, the General Accounting Office's "Standards for Internal Control
in the Federal Government," Office of Management and Budget Circulars
A-123 and A-127, and Department of Energy Order 413.1, "Management Control Program."
The results of the Department's evaluations of control systems have been included in the
Performance and Accountability Report that is due no later than March 1, 2001. This report
provides critical financial and program performance information in a single report as required
by the Government Performance and Results Act of 1993, and it references our continuing
concern with the challenges facing the Department in developing appropriate performance
measures and in validating results in relation to those measures.

Our review was made in accordance with generally accepted Government auditing standards,
which included tests of internal controls and compliance with laws and regulations to the
extent necessary to satisfy the audit objective. Because our review was limited, it would not
necessarily have disclosed all internal control deficiencies that may have existed at the time
of our audit. We assessed the draft Performance and Accountability Report and Assurance
Memoranda along with supporting documentation filed by selected Departmental
organizations to determine whether the results of their evaluations were accurately reported.
Follow-up work was also performed to determine what corrective actions the Department
took on the problems reported in the previous fiscal year.
                                              -2-

The objective of the FMFIA program is to ensure management controls are working
effectively, and that Department programs and administrative functions are performed in an
economic and efficient manner consistent with applicable laws. To ensure effective
implementation of the program, senior management involvement in the performance of
internal control evaluations and yearend reporting is necessary.

Overall, the Department has continued to carry out its internal control program mandated by
the FMFIA. We noted, however, that the nexus between reportable problems identified by
Field elements and Headquarters and Departmental challenges listed in the draft Performance
and Accountability Report was not clearly indicated in all cases. Further, the timeliness of
Headquarter's submissions of assurance memoranda continues to be a problem.

To strengthen the internal control environment, the Department, over the past several years,
has been taking actions to protect the government's interest at contractor-operated facilities.
These actions have included methods for motivating contractor performance and improving
contractor accountability at such facilities. More recently, in March 2000 Congress
established the National Nuclear Security Administration (NNSA) to provide more direct
lines of accountability for the management and operation of the nation's nuclear weapons
activities and the contractors that conduct those activities. As with the establishment of any
new Government enterprise, especially one with such a significant mission, the Department
faces a number of challenges associated with NNSA's creation.

We encourage vigilance by management during this transition period. In making the review
we coordinated closely with the Department's Office of Chief Financial Officer. A summary
of our observations and analysis is attached.

Attachment

cc:    Under Secretary for Nuclear Security/Administrator for Nuclear Security
       Chief Financial Officer
                                                                                  Attachment
                                                                                  Page 1 of 3

                       Federal Managers' Financial Integrity Act
                   Assurance Memorandum Observations Concerning
                     The Management Control Evaluations Process


The Department of Energy has conducted the required Federal Managers' Financial Integrity
Act (FMFIA) evaluations and implemented Office of Management and Budget requirements.
Generally, the results of management's evaluations were accurately reflected in the
Assurance Memoranda of the Departmental elements. These evaluations were positive steps
in establishing and maintaining a strong management control environment within the
Department. However, ongoing organizational changes related to establishment of the
National Nuclear Security Administration (NNSA) have had an effect on the internal control
environment that cannot be fully evaluated at this time.

The results of our review on the Department's progress in correcting and identifying
reportable problems and areas of concern are presented below.

PROGRESS

During Fiscal Year 2000, the Department continued to make progress in correcting
previously reported problems and monitoring ongoing corrective actions. For example, the
previously reportable problem of the operation of the Waste Isolation Pilot Plant has been
removed from the list of Departmental challenges. This year, the Department took steps to
better classify and categorize a number of reportable problems. The draft Performance and
Accountability Report for Fiscal Year 2000 includes three new Departmental challenges -
Managing Physical Assets, Information Technology, and Disruption in Energy Supplies.
Reportable problems for Fiscal Years 1999 and 2000 are set forth in the Appendix.

AREAS OF CONCERN

NNSA Implementation

In March 2000, NNSA was established as a semi-autonomous agency within the Department.
Pursuant to the National Defense Authorization Act for Fiscal Year 2000, NNSA is to
provide clear and direct lines of accountability and responsibility for the management and
operation of the nation's nuclear weapons, naval reactors, and nuclear nonproliferation
activities. The creation of NNSA presents the Department with a number of challenges that
include formalizing organizational responsibilities and authorities, and resolving cross-
cutting funding issues to ensure program integration and effectiveness.
                                                                                  Attachment
                                                                                  Page 2 of 3

Contract Management

Contract Management has been a concern for many years. Beginning in the mid-1990's the
Department initiated several efforts to increase its contractors' performance and
accountability to ensure prudent expenditures. Contract reform initiatives included the
adoption of performance-based contracts that emphasized results and incentives that
increased available fees dramatically.

Based on reviews conducted since 1994, many of the Department's contract reform goals
have not yet been achieved. These reviews have disclosed systemic weaknesses in the way
incentives have been administered. The Department's major contractors' fees have risen
dramatically without a commensurate increase in financial risk. In addition, many support
services contracted out were not economical to the Government. In our judgment, additional
opportunities are available for the Department to improve contracting practices of its major
contractors.

Defense Facilities Modernization (Managing Physical Assets)

For several years the Office of Inspector General (OIG) has reported that the condition of the
Department's infrastructure was inadequate and deteriorating faster than had been originally
anticipated. Recent audits have led us to conclude that the problem has become more severe.
For example, we recently reported that some Stockpile Stewardship Plan milestones and
goals have slipped, restoration costs have increased, and planned nuclear weapons work to
assure reliability was at risk. Without specific performance measures or goals to guide
resolution of these facility problems, restoration of these important physical assets will
continue to be delayed.

Identification of Management Challenges

The FMFIA process is predicated on identification of Department vulnerabilities at the field
or component level. This year, however, two reportable problems now in the draft
Performance and Accountability Report were not considered as Departmental Challenges by
officials responsible for the management of the program. Instead, they were added at the end
of the FMFIA process by senior Department officials in consultation with the OIG. Both of
these issues – disruption in energy supplies and contract management – were of sufficient
significance to have been recognized in the earliest stages of the FMFIA process.
                                                                                Attachment
                                                                                Page 3 of 3

Timeliness of Assurance Memoranda

Seventeen of 28 Headquarters offices did not submit Assurance Memoranda by the
established due date, and 12 of those were 2 or more weeks late. Environmental
Management, one of the largest programs, submitted its memorandum more than a month
late. Because there are key milestones in the process to provide senior management with
complete information, and the Assurance Memoranda serve as a basis for the Secretary's
Accountability Report to the President, these delays were significant. Although the FMFIA
process is challenging and some late submissions were expected, timely submission
continues to be a concern. In our opinion, these delays hinder the Department's overall
assessment of its internal control structure and the implementation of corrective actions.
                                                                               APPENDIX

                          Comparison of Reportable Problems

FY 1999 Reportable Problems

1. Surplus Fissile Materials
2. Environmental Compliance
3. Waste Isolation Pilot Plant
4. Nuclear Waste Disposal
5. Safety and Health
6. Contract Management
7. Project Management
8. Inadequate Audit Coverage
9. Security (Includes the prior challenge--Unclassified Computer Security)
10. Mission Critical Staffing (Previously Workforce Planning emerging issue)

FY 1999 Reportable Nonconformance

Financial Management System Improvements (Previously a reportable problem)


Proposed FY 2000 Reportable Problems (Draft Performance and Accountability Report)

1. Environmental Compliance
2. Surplus Fissile Materials
3. Nuclear Waste Disposal
4. Safety and Health
5. Project Management
6. Security
7. Mission Critical Staffing
8. Information Technology
9. Disruption in Energy Supplies (Energy Technology)
10. Managing Physical Assets (Defense Facilities Modernization)
11. Contract Management
12. Inadequate Audit Coverage

Emerging Issues

NNSA Implementation
